      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




March 24, 2010

TO:            Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Payments by the Centers for Disease Control and Prevention to Vaccine
               Manufacturers and Suppliers (A-04-06-01042)


The attached final report provides the results of our audit of payments by the Centers for Disease
Control and Prevention to vaccine manufacturers and suppliers. We conducted this audit at the
request of the Senate Committee on Finance.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-04-06-01042 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




  PAYMENTS BY THE CENTERS FOR
DISEASE CONTROL AND PREVENTION
 TO VACCINE MANUFACTURERS AND
           SUPPLIERS




                        Daniel R. Levinson
                         Inspector General

                           March 2010
                          A-04-06-01042
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Centers for Disease Control and Prevention (CDC) purchases childhood and adult vaccines
through contracts with pharmaceutical manufacturers and suppliers (vendors). The vendors
distribute the vaccines to such recipients as States, territories, and major metropolitan areas and
submit dated invoices to CDC.

The Prompt Payment Act of 1982 (P.L. No. 97-177) and implementing regulations require
Federal agencies to pay vendor invoices in a timely manner and to add interest penalties if
payments are delayed. In the absence of other contractual provisions, an agency generally must
pay a proper invoice within 30 days of the later of the receipt of the invoice or the receipt of the
supplies. If an invoice is not paid timely, the agency incurs interest from the day after the
payment was due until the payment is made.

During our audit period (April 1, 2005, through August 31, 2006), CDC paid 179,129 invoices
from five vaccine vendors. Three vendors submitted electronic invoices, and two submitted
paper invoices. CDC enters both types of invoices in the Unified Financial Management System
(UFMS) and uses the UFMS to process payments to the vendors. The UFMS establishes the
start of the 30-day payment period by setting a “terms date,” which is the later of the invoice
date, invoice receipt date, or vaccine receipt date. The terms date is subject to manual
adjustment.

We performed this audit at the request of the Senate Committee on Finance.

OBJECTIVE

Our objective was to determine the extent to which CDC paid invoices for vaccines in a timely
manner and calculated and paid required interest on late payments.

SUMMARY OF FINDINGS

CDC paid the large majority of vaccine invoices in a timely manner and generally calculated and
paid required interest on late payments. Of the 179,129 invoices that CDC paid from April 2005
through August 2006, 172,566 (more than 96 percent) were paid within the required period. For
the 6,563 remaining invoices, which were not paid within the required period, CDC paid
appropriate interest or did not owe interest on 4,895 invoices but had not paid interest totaling
$1,081,224 on 1,668 invoices as of August 31, 2006. The unpaid interest occurred because CDC
had entered incorrect paper invoice receipt dates in the UFMS or had not entered electronic
invoices in the UFMS on the day of their receipt.

In addition, during our review, we determined that CDC had paid 46 invoices twice, resulting in
duplicate payments totaling $2,044,220. In these cases, CDC had bypassed system edits to
generate electronic payments without first determining whether the invoices had been paid.




                                                  i
As a result of the unpaid interest and duplicate payments, CDC owed one vendor $1,650,246 and
four vendors owed CDC $687,250.

RECOMMENDATIONS

We recommend that CDC:

      pay $1,650,246 in interest due one vendor;

      recover $687,250 in duplicate payments (net of interest due) from four vendors; and

      consider reviewing all replacement paper invoices paid after August 31, 2006, to identify
       any unpaid interest or duplicate payments.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In comments on our draft report, CDC disagreed with our findings and recommendations. CDC
acknowledged that interest was sometimes not paid when due; however, CDC disagreed that it
owed $1,650,246 in interest. Although CDC acknowledged that some of the invoices cited in the
draft report were paid twice, it stated that it had identified and was in the process of collecting at
least $1,989,257 of the duplicate payments before the start of our audit. CDC also said that
implementing our third recommendation would not be an efficient use of resources. The
complete text of CDC’s comments is included as Appendix B.

In response to CDC’s comments, we reviewed additional documentation and found that CDC
had recovered duplicate payments on 66 invoices totaling $1,161,225. We reduced the number
and dollar value of duplicate payments reported in this final report accordingly. We maintain
that our findings and recommendations, as revised, are valid.




                                                  ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Centers for Disease Control and Prevention Vaccine Purchases....................... 1
              Prompt Payment Act .......................................................................................... 1
              Invoice Processing ............................................................................................. 1
              Congressional Request....................................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope ................................................................................................................ 2
               Methodology ...................................................................................................... 2

FINDINGS AND RECOMMENDATIONS .......................................................................... 3

          PROMPT PAYMENT REQUIREMENTS ................................................................... 3

          LATE PAYMENTS....................................................................................................... 4
               Paper Invoices.................................................................................................... 4
               Electronic Invoices............................................................................................. 4

          DUPLICATE PAYMENTS........................................................................................... 5

          RECOMMENDATIONS............................................................................................... 5

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS AND
            OFFICE OF INSPECTOR GENERAL RESPONSE
               Late Payments ................................................................................................... 5
               Duplicate Payments ........................................................................................... 5
               Further Review of Replacement Invoices.......................................................... 6

APPENDIXES

          A: UNPAID INTEREST AND DUPLICATE PAYMENTS BY VENDOR

          B: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                   iii
                                       INTRODUCTION

BACKGROUND

Centers for Disease Control and Prevention Vaccine Purchases

The mission of the Centers for Disease Control and Prevention (CDC) is to promote health and
quality of life by preventing and controlling disease, injury, and disability. To help accomplish
this mission, CDC purchases vaccines through contracts with pharmaceutical manufacturers and
suppliers (vendors). The vendors then distribute the vaccines to such recipients as States,
territories, and major metropolitan areas.

CDC purchases more than half of the childhood vaccines sold in America, as well as large
quantities of adult vaccines. These purchases support the Vaccines for Children (VFC) program
established by the Omnibus Budget Reconciliation Act of 1993 (P.L. No. 103-66), other grants
for preventive health services authorized under section 317 of the Public Health Service Act
(P.L. No. 87-868), and the Strategic National Stockpile. During fiscal year 2006, vaccine
purchases under the VFC and section 317 programs accounted for more than $2.2 billion, almost
26 percent of CDC’s total budget. CDC’s proposed budget for fiscal year 2009 included nearly
$3 billion for these purchases.

Prompt Payment Act

The Prompt Payment Act of 1982 (P.L. No. 97-177) requires Federal agencies to pay proper
vendor invoices in a timely manner and to add interest penalties if payments are delayed.
Implementing regulations (5 CFR pt. 1315 and 48 CFR ch.1, subpart 32.9) provide that in the
absence of other contractual provisions, an agency generally must pay a proper invoice within 30
days of the later of the receipt of the invoice or the receipt of the supplies. If an invoice is not
paid in a timely manner, the agency incurs interest from the day after the payment was due until
the payment is made. Assuming that certain conditions are met, including receipt of a proper
invoice, the agency is required to compute and pay interest to vendors automatically; vendors are
not required to request interest. Interest of less than $1 need not be paid.

Invoice Processing

During our audit period (April 1, 2005, through August 31, 2006), CDC contracted with five
vaccine vendors. To receive payment for the vaccines that they supplied, the vendors submitted
dated invoices to CDC. Three vendors submitted electronic invoices, and two submitted paper
invoices.

      CDC downloads electronic invoices daily from its electronic mailbox. CDC then
       matches the invoices to the corresponding vaccine orders and enters the invoices in the
       Unified Financial Management System (UFMS), which CDC uses to process payments.

      CDC date-stamps paper invoices “received” when they arrive at CDC’s Financial
       Management Office (FMO) and then manually enters the invoices in the UFMS.


                                                 1
For both electronic and paper invoices, the UFMS establishes the start of the 30-day payment
period by setting a “terms date,” which is the later of the invoice date, the invoice receipt date, or
the vaccine receipt date that the vaccine recipient enters in the NIPVAC system. 1 The terms date
is subject to manual adjustment.

Congressional Request

We performed this audit at the request of the Senate Committee on Finance.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the extent to which CDC paid invoices for vaccines in a timely
manner and calculated and paid required interest on late payments.

Scope

Our audit covered the period April 1, 2005, through August 31, 2006. During that period, CDC
paid 179,129 invoices totaling approximately $2.4 billion from five vendors of vaccines needed
for the VFC and section 317 programs and for the Strategic National Stockpile.

We limited our review of CDC’s internal controls to those applicable to accounts payable
systems. We performed fieldwork at CDC in Atlanta, Georgia.

Methodology

To accomplish our objective, we:

       reviewed the Prompt Payment Act and implementing regulations;

       reviewed CDC’s contracts with the five vendors to identify the payment terms;

       interviewed FMO officials and staff to gain an understanding of the systems and
        processes for paying vaccine vendors;

       analyzed the technical specifications of the UFMS accounts payable module and
        reviewed flowcharts and other records on the flow of vaccine-related data from feeder
        systems to the UFMS;

       reviewed the 179,129 invoices from the five vendors and identified invoices that were
        paid late and that had interest due vendors;



1
 CDC uses the NIPVAC system to track vaccine orders, funding information, vaccine receipt/acceptance dates, and
accounting data. Information from the NIPVAC system feeds into the UFMS.


                                                       2
      analyzed data from the UFMS, as well as from archived electronic invoice files and the
       NIPVAC system, to determine why invoices were paid late;

      calculated interest due in accordance with the requirements of the Prompt Payment Act;
       and

      reviewed the invoices for potentially duplicate payments to determine whether they were,
       in fact, duplicates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

CDC paid the large majority of vaccine invoices in a timely manner and generally calculated and
paid required interest on late payments. Of the 179,129 invoices that CDC paid from April 2005
through August 2006, 172,566 (more than 96 percent) were paid within the required period. For
the 6,563 remaining invoices, which were not paid within the required period, CDC paid
appropriate interest or did not owe interest on 4,895 invoices but had not paid interest totaling
$1,081,224 on 1,668 invoices as of August 31, 2006. The unpaid interest occurred because CDC
had entered incorrect paper invoice receipt dates in the UFMS or had not entered electronic
invoices in the UFMS on the day of their receipt.

In addition, during our review, we found that CDC had paid 46 invoices twice, resulting in
duplicate payments totaling $2,044,220. In these cases, CDC had bypassed system edits to
generate electronic payments without first determining whether the invoices had been paid.

As a result of the unpaid interest and duplicate payments, CDC owed one vendor $1,650,246 and
four vendors owed CDC $687,250. Appendix A presents details on these amounts by vendor.

PROMPT PAYMENT REQUIREMENTS

Implementing regulations (5 CFR pt. 1315 and 48 CFR ch.1, subpart 32.9) provide that the
period available to an agency to make timely payment without incurring an interest penalty
generally starts on the later of the date that the agency receives a proper invoice from a vendor or
the date that the recipient receives the supplies. In the absence of other contractual provisions,
the payment due date is generally 30 days after the start of the payment period. If an agency
does not make a payment by the due date, the agency must calculate interest from the day after
the payment due date through the payment date at the interest rate in effect on the day after the
payment due date. For up to 1 year, interest remaining unpaid at the end of any 30-day period
will be added to the principal and subsequent interest will accrue on that amount until paid.
Interest of less than $1 need not be paid.




                                                 3
LATE PAYMENTS

From April 2005 through August 2006, CDC paid 6,563 invoices late. For 4,526 of these
invoices, which were paid an average of 17 days late, CDC paid appropriate interest totaling
$611,059. CDC did not owe interest on 369 other invoices, which were paid an average of
12 days late. Because interest was paid properly or was not due on these invoices, we did not
determine why the invoices were paid late.

CDC paid the remaining 1,668 invoices an average of 30 days late but did not pay interest as
required. As of August 31, 2006, CDC owed $1,081,224 in interest on these late payments.
CDC did not pay the required interest because the UFMS contained incorrect terms dates.

      For 1,397 paper invoices with $982,532 in unpaid interest, CDC did not enter the correct
       invoice receipt dates in the UFMS.

      For 271 electronic invoices with $98,692 in unpaid interest, CDC did not enter the
       invoices in the UFMS on the day of their receipt.

Paper Invoices

CDC generally date-stamped paper invoices “received” within 7 days following the invoice
dates; however, some paper invoices were date-stamped much later, resulting in incorrect terms
dates. Although some contracts directed vendors to send invoices to FMO, other contracts
directed vendors to send invoices to contracting officers or were silent regarding where to send
paper invoices. However, FMO incorrectly considered invoices properly received only when
they reached FMO and were date-stamped.

For example, three vaccine orders totaling $100 million for the Strategic National Stockpile
directed the vendor to submit invoices to the contracting officer. The corresponding invoices
were dated May 23, 2006, and were date-stamped “received” June 12, 2006, by the contracting
officer. Upon receiving a facsimile on July 21, 2006, from the contracting officer explaining that
the invoices had not been paid, FMO manually changed the June 12, 2006, terms date that the
UFMS had established to July 21, 2006. FMO then paid the invoices in early August 2006. As a
result, CDC paid the three invoices 42 days late and did not pay $601,506 in interest due the
vendor.

Electronic Invoices

CDC sometimes did not transmit electronic invoices from its electronic mailbox to the UFMS on
the day of their receipt. A CDC manager erroneously directed that these invoices were not to be
considered proper invoices and said that she had instructed vendors to submit replacement paper
invoices in these cases. Upon receiving the paper invoices, CDC employees entered the invoices
in the UFMS as if they were new invoices, thus incorrectly adjusting the terms dates originally
established by the UFMS. To determine the actual invoice receipt dates, we used electronic
copies found in CDC’s archived files. We determined that the archived electronic invoices
contained all of the elements of proper invoices.



                                                4
DUPLICATE PAYMENTS

CDC made duplicate payments totaling $2,044,220 on 46 invoices from four vendors during the
audit period. We found no evidence that these vendors had notified CDC of the duplicate
payments.

The duplicate payments occurred when vendors that had not received payment for their initial
invoices submitted replacement paper invoices. Some CDC employees bypassed system edits to
generate electronic payment of the replacement invoices without first determining whether the
invoices had already been paid. One CDC employee was involved with approximately
$2 million of the $2,044,220 in duplicate payments. CDC has since reassigned this employee to
a different area of responsibility.

RECOMMENDATIONS

We recommend that CDC:

      pay $1,650,246 in interest due one vendor;

      recover $687,250 in duplicate payments (net of interest due) from four vendors; and

      consider reviewing all replacement paper invoices paid after August 31, 2006, to identify
       any unpaid interest or duplicate payments.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS
AND OFFICE OF INSPECTOR GENERAL RESPONSE

In comments on our draft report, CDC disagreed with our findings and recommendations. A
summary of CDC’s comments and our response to those comments follow. The complete text of
CDC’s comments is included as Appendix B.

Late Payments

CDC acknowledged that it sometimes did not pay interest when due. Although CDC disagreed
that it owed $1,650,246 in interest, CDC did not indicate what amount it owed.

CDC did not provide additional information that would cause us to change our finding or
recommendations related to interest due on late payments.

Duplicate Payments

Although CDC acknowledged that some of the invoices cited in our draft report were paid twice,
it stated that it had identified and was in the process of collecting at least $1,989,257 of the
duplicate payments before the start of our audit. According to CDC, the duplicate payments
occurred because the vaccine contracting and ordering systems changed the ordering process
during 2005, thus compromising a system control designed to prevent duplicate invoices. CDC



                                               5
described controls that it had recently implemented to identify and prevent future duplicate
payments. CDC also stated that some of the duplicate payments that we cited were actually for
duplicate shipments that CDC had accepted, thus making the “duplicate” payments appropriate.

Our draft report stated that CDC had paid 112 duplicate payments totaling $3,205,445 during the
audit period. In response to CDC’s comments, we reviewed additional documentation and found
that CDC had recovered duplicate payments on 66 invoices totaling $1,161,225. We reduced the
number and dollar value of duplicate payments reported in this final report accordingly. With
respect to duplicate shipments, during our audit, we verified that the duplicate payments
identified in our report were not the result of duplicate shipments; therefore, CDC’s statement
that some duplicate payments were appropriate is not accurate.

Further Review of Replacement Invoices

CDC stated that a review of all replacement invoices paid after August 31, 2006, would not be an
efficient use of resources.

CDC did not provide a cost-benefit analysis to support its assertion. Accordingly, we maintain
that our third recommendation is valid.




                                               6
APPENDIXES
      APPENDIX A: UNPAID INTEREST AND DUPLICATE PAYMENTS BY VENDOR


                                             Duplicate
                                          Payments Owed
                                          by Vendor as of                                  Net Amount
                   Interest Owed to        December 9,           Net Amount Due             Owed by
                        Vendor                2009 1                 Vendor                  Vendor

                           (A)                    (B)               (A minus B)            (B minus A)

    Vendor A                 $632,412                $10,420               $621,992

    Vendor B                      2,109                      0                 2,109

    Vendor C                     71,093                 45,588                25,505

    Vendor D                  113,021              1,763,267                                    $1,650,246

    Vendor E                  262,589                224,945                  37,644

      Total                $1,081,224             $2,044,220               $687,250             $1,650,246




1
These amounts are based on additional documentation as of December 9, 2009, which we reviewed after receiving
Centers for Disease Control and Prevention comments on our draft report.
                                                                                                  Page 1 of 4



APPENDIX B: CENTERS FOR DISEASE CONTROL AND PREVENTION 

                      COMMENTS


      DEPARTMENT Of HEALTH &. HUMA!'>, SERVICES 	                             PubJoc Health ServlC8


                                                                              Cenlers tor D,se-ase Control
                                                                                and Preventl(K1 (CDC)
                                                                              Atlanta GA 30333



                                                                                    SEP 18      am

    TO: 	         Daniel R. Levinson
                  Inspector General

    FROM: 	       Director, Centers for Disease Control and Prevention
                  Administrator. Agency for Toxic Substances and Disease Registry

    SUBJECT: 	    Payments by the Centers for Disease Control and Prevention to Vaccine
                  Manufactures and Suppliers (A-04-06-01 042)

    The Centers for Disease Conlrol and Prevention (CDC) appreciates the opponunity to review
    and comment on Ihe Office of Inspector General 's (O[G) drafl repon, "Payments by the Centers
    for Disease Conlrol and Prevention to Vaccine Manufacturers and Suppliers (A-04.Q6.01 042):'

    The objective of the audit was to detennine the extent to which CDC paid invoiccs for vaccines
    in a timely manncr and caleulated and paid required interest on late paymcnts. Thc audit
    concluded that CDC paid the majority of vaccine invoices in a timely manner and generally
    calculatcd and paid required interest on late payments, but did not pay interest due totaling
    $1,081,224 on 1.668 invoices. The report states that the unpaid interest occurrcd because CDC
    had entered incorrect paper invoice receipt dates in the UFMS. or had not entered electronic
    invoices in the UFMS on the day of their receipt. In addition, the GIG found that CDC had paid
    112 invoiccs twiec, resulting in duplicate payments totaling $3,205,445.

    DIG Reco mmendatio n and C DC Res ponse

    The GIG recommended that CDC take the following actions:
              • 	 Recover $2,748,322 in duplicate payments (net of interest due) from three
                  vendoTS;
              • 	 Pay $624.101 in interest due two vendors: and
              • 	 Consider reviewing al l replaecment paper invoices paid after August 31, 2006, to
                  identify any unpaid interest or duplicate payments.

    CDC does not agree wi th the findings and recommendations. While CDC acknowledges that
    interest was sometimes not paid when due, primarily due to system errors. we do not agree with
    the conclusions reached by the O IG rclated to either the amount of interest due to vaccine
    vendors, the reasons any interest due was not paid, or their detection of duplicate payments.
    Accordingly, we cannot agree to implement the recommendations related to recovering or paying
    funds due from or to CDC vaccine vendors. Also, we believe that a review of all rep lacement
    paper invoices after August 31, 2006, would not be an efficient use of CDC resources. Many of
                                                                                                Page 2 of 4




Page 2 - Daniel R. Levinson


the errors noted in this report occurred shonly after the implementation of UFMS when system
users and programmers were still in a learning phase, and thai experience and additional
systemic and process controls have mitigated these types of errors from occurring as UFMS use
stabili7.ed.

We reviewed the detailed supporting documentation provided by the OIG and randomly sclttted
37 invoices from the 2006 spreadsheet to validate the results provided by the 0 10. Based on OUT
analysis oflhese invoices. we do not agree with the conclusions and calculations provided by the
010.

Although the O[G rel;;ognized in the draft report's background paragraph. entitled "Prompt
Payment Act," that the agency. "must pay a proper invoice within 30 days orthe receipt orlhe
invoice or the receipt orthe supplies;' it appears IMIlhe calculations perfonned by the DIG did
not consider either the date a proper invoice was received at the designated billing location, or
the date reflected in CDC systems as the vaccine receipt date. The calculations provided by the
O[G appear to be based solely on Ihe invoice date, which is contrary to the provisions of the
Prompt Payment Act. This would affect calculations related to al [east 525 of the approximately
1,250 invoices showing interest due by the DIG on the 2006 spreadsheet. and reduce the interest
owed on these invoices by at least $]52,]90.

The DIG did not consider the dates the invoices were received at the desi gnated billing omce
whcn computing the payment due dates. It appears that the DIG considered a mailing lime of
seven da ys from the invoice date as reasonable, and anything outside of the seven day period as
unreasonable. CDC strongly disagrees with this methodology. The Prompt Payment Act
specifies that, in the absence ofa date stam p, the invoice date should be used; however, the
invoices examined by the DIG tontained a date stamped on the invoice allhe time the invoice
was received at the designated billing location. We are not aware of any substantive audit work
perfonned by the DIG that would demonstrate evidence that CDC's invoice receiving processes
were unreliable, nor are we aware of any provisions in the Prompt Payment Act that define whal
a reasonable mailing period is. Consequently, we do nOI agree that any of the 1]8 invoices
categorized by the DIG as, "late date stamp," wilh associated interest due ofSI4,I61, were
actually late.

Additionally, several of the invoices categorized by the OIG as, "other evidence of prior receipt,"
were considered lale because they were initially received by COC's procurement omce.
Although the D IG spreadsheets reflect that the contracts directed the invoices to be submitted to
the procurement omce, a contract modification, dated June], 2005, standardized invoicing
procedures and directed all contractors 10 submit all invoices to the finance office as the omcial
invoice receipt point for Prompt Payment purposes. Also, some of the invoices in this category,
although originally received at the desi gnated billing office earlier than the date used to compute
the payment due date, did not contain all required infonnation and. therefore, were not
considered proper invoices unti l resubmitted with the required information. Thercrore, we also
                                                                                                Page 3 of 4




Page J. Daniel R. Levinson


do not agree with the OIG's conclusions related to at teast 9 oflhe 26 invoices in this category
and the related $15,060 in interest.

The OIG also did not consider the vaccine receipt dales when computing payment due dates.
although the receipt dates are reflected in CDC documents and the spreadsheets used by the OIG.
We found thaI receiving data was available, but not used for ovcr 600 oflhe approximately 1,250
invoices thaI the OIG slates were incorrectly paid during FY06. For at Icasl375 ofthcsc
invoices. using the receiving dales would result in no interest 31 all or interest reductions of al
least $323,169. For instance, the interest due for the three invoices the OlG ciled as examples in
the drafi report was calculated using the invoice dale, although the invoice documentation
provided to the QIG included an invoice receipt date annolmed by the contracting officer and a
product receiving and acceptance date annotated by the project officer. both later than the
invoice date. As a result, the interest due on these three invoices would be 5298,208.14 less than
the amount cited by the DIG. Additionally, these invoices were associated with a contract
wnllen by another OPDTV. but citing CDC funds for payment, which is very unusual. Werlo not
believe this example is representative of the problems encountered by CDC that resulted in late
payments, and does not provide a fair picture ofthe audit results.

As a result ofour cursory review of the data provided by the DIG, we cannot agree that the
conclusions reached by the DIG arc valid and supportable, and cannot make interest payments
recommended by the DIG. In our opinion, payment of these amounts would be erroneous and
improper payment.

Due to time constraints. we did not perform sinlilar detailed analysis of the 2005 Iile. However,
we did randomly review four of the invoices included on the DIG spreadsheet classified as late.
with interest due. Our review showed that, for three of the invoices, the interest due to the
vendor was paid with the original in\'oice payment. Accordingly, payment of these amounts as
recommended by the OIG would constitute an impropcrduplicate payment.

We also do not agree with the DIG's assessment th.1I the cause orthe incorrect late payments
was that "CDC did not pay the required interest because the UFMS contained incorrect tenns
dates." In our opinion, the DIG did not conduct sufficient causative research to ascertain the
reasons why the invoices were incorrectly paid. The payment dates for many of the invoices
cited as incorrect by the OIG were not driven by the tcrnls date, so this conclusion is not properly
supported. In our opinion. many of the errors that were made wcre related to the learning curvc
associated with the implememation of UFMS. a very complex and interrelated system.

DUPLICATE I1\rvOICES

CDC also docs not agree with the conclusions of the OIG regarding duplicate payments made by
CDC to vaccine vendors. While CDC agrees that some of the invoices cited in the audit report
were paid twice, CDC had idenlified the duplicate payments prior to the OIG"s field work in this
area began. The duplicate payments occurttd i>«ause the vaccine contracting and ordering
                                                                                                Page 4 of 4




Page 4- Daniel R. Levinson


systems changed the ordering process during 2005, which compromised one of the systemic
controls contained in the finance systCtn to prevent duplicate invoices. The finance office alened
their payment employees and implemented manual compensating controls in January 2006
(several months prior to the audit start), and at least S 1,989,257 of the duplicatcs included in the
OIG's report were in the process ofbcing collected al the time the audit started. In September,
2006. within a month of the beginn ing of the audit work, CDC had developed a report to aid
managers in iden ti fying potential duplicate paymen ts, and, shortl y thcrcaf\cT, CDC developed
compensating systemi\; controls 10 prevcnllhc duplicate payments. Additionall y. some of the
duplicate billings cited by the Q1G were actuall y for duplicate shipments th3t were 3cceptcd by
CDC, m3king the "duplicate" payment appropriate.

We appreciate your consideration of the comments contained in this memo as you develop the
final rcpon. We are happy to discuss any ofthecommcnLS with you. Please direct any questions
regardi ng these comments 10 Ms. Barbar:1 Harris by lelephone al (404) 498-1433 or bye-mail al
bwh@Cde.gov.



                                  ~           Thonlas R. Fnedcn,      .0.. M.P.H.
                                                                                                        

